Region 6's Enforcement and Compliance Assurance
Program
               EPA Office of Inspector General
               Region 6's Enforcement and Compliance
               Assurance Program
                             TABLE OF CONTENTS

EXECUTIVE SUMMARY

CHAPTERS:

1.INTRODUCTION

     PURPOSE

     BACKGROUND

     SCOPE AND METHODOLOGY

     PRIOR AUDIT COVERAGE

2.STATE ENFORCEMENT ACTIONS NEED TO HAVE A STRONGER DETERRENT EFFECT

     BACKGROUND

     COMPUTING ECONOMIC BENEFIT

     TIMELINESS OF ENFORCEMENT ACTIONS

     PUBLICIZING THE RESULTS OF ENFORCEMENT ACTIONS

     COMPLIANCE ASSISTANCE

     RECOMMENDATIONS

     REGION 6 COMMENTS

     OIG COMMENTS

3.REGION 6 ENFORCEMENT ACTIONS NEED TO BE TIMELY AND WELL DOCUMENTED

     BACKGROUND
       COMPUTING ECONOMIC BENEFIT

       TIMELINESS OF ENFORCEMENT ACTIONS

       PUBLICIZING THE RESULTS OF ENFORCEMENT ACTIONS

       COMPLIANCE ASSISTANCE

       RECOMMENDATIONS

       REGION 6 COMMENTS

       OIG COMMENTS

4.REGION 6 ENFORCEMENT DATA WERE NOT COMPLETE OR CONSISTENT

       BACKGROUND

       INCOMPLETE REPORTING OF SIGNIFICANT VIOLATORS IN AFS

       INCONSISTENT REPORTING

       OTHER ISSUES

       CONCLUSION

       RECOMMENDATIONS

       REGION COMMENTS

       OIG COMMENTS

   •   EXHIBIT 1 - SUMMARY OF PENALTIES FOR SAMPLE UNIVERSE
   •   EXHIBIT 2 - TOP BARRIERS TO EFFECTIVE AIR ENFORCEMENT
   •   EXHIBIT 3 - OIG AND GAO REPORTS

APPENDIX 1 - REGION 6 and TNRCC RESPONSES (only available in hardcopy)

APPENDIX 2 - LDEQ RESPONSE (only available in hardcopy)

APPENDIX 3 - DISTRIBUTION
